No. 20-645
IN THE SUPREME COURT OF THE UNITED STATES

STANDING AKIMBO, LLC, ET AL., PETITIONERS
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with
copies of the SUPPLEMENTAL BRIEF, via e-mail and first-class mail, postage
prepaid, this 13TH day of August, 2021.

[See Attached Service List]

As required by Supreme Court Rule 33. l(h), I certify that the document contains 366
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Ebcet uted on August 13, 2021

orburn Law Group, LLC
5460 S. Quebec St., #310
Greenwood Village, CO 80111
(303) 646-3482
jthorburn@thorburnlawgroup .com

